m

) ^ | ft

fi) I
n
■

V

■ i

IN THE
\.

SUPREME COURT OF THE UNITED STATES

JUSTIN LEE ’SANDERS

11954030

— PETITIONER

vs.
UNITED STATES OF AMERICA

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO
United States Court of Appeals / Eighth Circuit

PETITION FOR WRIT OF CERTIORARI

• JUSTIN LEE SANDERS, 11954030
FCI Greenville
P.O. Box 5000
Greenville, IL 62246
PRO SE REPRESENTATION

■A

QUESTION(S) PRESENTED

The United States District Court, Southern District
of Iowa - and the Eighth Circuit Court should have
issued a COA to review the denials of the Petitioner's
Federal Writ of Habeas Corpus Section 2255.
Did the Courts commit reversible error denying Petitioner’s
COA, to resolve the factual disputes.

LIST OF PARTIES

1^3 All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

United States Court of Appeals, Eighth Circuit Case No. 20-1975 Mandate issued - August 17, 2020
United States Court of Appeals, Eighth Circuit Case No. 20-1975 Rehearing En Banc - Denied - August 7, 2020
United States Court of Appeals, Eighth Circuit Case No. 20-1975 Certificate of Appealability - Denied - June 30, 2020
United States District Court, Southern District of Iowa - Case No. 20-cv-00141-JAJ
28 U.S.C. Section 2255 - Denied

TABLE OF CONTENTS
OPINIONS BELOW

(1)

JURISDICTION

(2)

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

(3)

STATEMENT OF THE CASE

■(4)

REASONS FOR GRANTING THE WRIT

(5)

CONCLUSION

(6)

INDEX TO APPENDICES
United States Court of Appeals, Eighth Circuit Case No. 20-1975
APPENDIX A . Mandate issued - August 17, 2020.
_
. .....______
United States Court of Appeals, Eighth Circuit Case No. 20-1975
APPENDIX B _Rehearing En Banc - Denied - August 7, 2020
United States Court of Appeals, Eighth Circuit Case No. 20-1975 APPENDIX C _ Certificate of Appealability - Denied - June 30, 2020
United States District Court, Southern District ot Iowa - Case No. 20-cv-00141-JAJ
APPENDIX D . 28 U.S.C. Section 2255 - Denied

TABLE OF AUTHORITIES CITED
CASES
BAREFOOT -v- ESTELLE, 463 U.S. 880
77 L. Ed. 2d. 1090, 103 S. Ct. 3383 (1983)
HOHN -v- UNITED STATES, 524 U.S. 236
256, 141 L. Ed. 2d. 242, 118 S. ct. 1969 (1998)
MILLER-EL -v- COCKRELL, 537 U.S. 322
154 L. Ed. 2d. 931, 123 S. Ct. 1029 (2003)...................
MILLER-EL -v- JOHNSON, 262 F. 3d. 445, 449 (2001)
SLACK -v- McDANIEL, 529 U.S. 473
146 L. Ed. 2d. 542, 120 S. Ct. 1595 (2000).......... .......................

Pg- 6.
Pg. 5'

Pg. 5
Pg-5

Pg. 5.
Pg. 5

SLACK, Supra at 484, 146 L. Ed 2d. 542, 120 S. Ct. 1595 (2000)
WILLIAMS-v-TAYLOR, 529 U.S. 420
436, 146 L. Ed. 2d. 435, 120 S. Ct. 1479 (2000)...........................

STATUTES AND RULES
28
28
28
28
28

U.S.C.S.
U.S.C.S.
U.S.C.S.
U.S.C.S.
U.S.C.S.

Section
Section
Section
Section
Section

2255
2253(c)
2253(c)(2)
1254
2253(c)(1)(A)

Rule 11
Rule 9(b)
Fed Rule. App. Proc. 22(b)
Fed Rule Civ. Proc. 41(A)
Fed Rule Civ. Proc. 8(f)
21 U.S.C. Section 841(A)(1)(B)(1)(A).
21 U.S.C. Section 846

OTHER

Pg.7

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

^ For eases from federal courts:
to

The opinion of the United States court of appeals appears at Appendix
the petition and is
5 or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
is unpublished.
The opinion of the United States district court appears at Appendix P
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
D<1 is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
5 or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION

1X1 For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was AU&U5T IT, ZOoW
[ ] No petition for rehearing was timely filed in my case.
[X] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: $tJ£f-UST '7*J20£Q— , and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date)
(date) on
to and including---------in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix---------[ ] A timely petition for rehearing was thereafter denied on the following date:
______ _______________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) in
(date) on
to and including -----Application No. —_A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
21 U.S.C. Section 841(A)(1)(B)(1)(A)
21 U.S.C. Section 846
Iowa Code section 124.401 (4)(B)
28 U.S.C. Section 2253(c)(2)
28 U.S.C. Section 2253

3.

STATEMENT OF THE CASE

On June 19, 2018 the Grand Jury for the Southern District of Iowa returned a one Count Indictment charging the
Petitioner and another with Possession with Intent to Distribute Fifty Grams or more of Actual Methamphetamine
21 U.S.C. Section 841(A)(1)(B)(1)(A). On May 30, 2019, the Petitioner plead guilty to the one Count Indictment.
At sentencing he was determined to be a Career Offender by reason of convictions in 2003 for Possession of
" precursor" (Pseudoephedrine) with Intent to Manufacture, in violation of Iowa Code section 124.401 (4)(B), Conspiracy
Manufacture, and Distribute Methamphetamine in 2004 in violation of 21 U-S.C. Section 846, and Possession of
" Precursor" (Pseudoephedrine) with Intent to Manufacture Methamphetamine in 2013, again in violation of Iowa Code
Section 124.401 (4)(B). In his 2013 State Court Case, the Petitioner was also guilty of Possession of Lithium with
Intent to Manufacture.
On September 26, 2019, the Petitioner was sentenced to 210 months.

4.

REASONS FOR GRANTING THE PETITION
Under the Antiterrorism and Effective Death Penalty Act (AEDPA), a Petitioner must obtain a " Certificate
of Appealability" (COA) before he/she can appeal the District Court's decision. 28 U.S.C. Section 2253
(c)(1). A COA will be granted only if the Petitioner makes " a substantial showing of the denial of a Constitutional
Right'". 28 U.S.C. Section 2253 (c)(2).
The Constitutional Right in the case at hand, was the right to effective assistance of counsel, thus the
premised of this Petition is to ask this Court to remand this matter to the Court of Appeals, and issue an order
allowing the Petitioner's COA.
In order to make a substantial showing, a Petitioner must demonstrate that a " reasonable jurists " would
find the District's Court's assessment of the Constitutional claim debatable or wrong. SLACK -v- McDANIEL, 529
U.S. 473, 484, 120 S. Ct. 1595, 146 L. Ed. 2d. 542 (2000)
Without going outside the scope of this petitions issues, which focuses on the Court of Appeals denial of the
Petitioners COA. The Petitioner brings to this Honorable Court attention and places on the record, the Seventh
Circuit Court of Appeals decision of June 25, 2020 denying his COA. In a " one page " order, the Court of Appeals
based its denial of the Petitioner's COA as stated:" this Court has reviewed the orders of the District Court and the
record of appeal. We find no substantial showing of the denial of a constitutional right".
The Petitioner states, any District Court, any Court of Appeals or this Honorable United States Supreme
Court, before issuing an order and or opinion must review the" totality" of the record in order to preserve
Due Process Rights and Constitutional rights of both parties. Without reviewing submissions by both parties,
clearly are Due Process violations.
As the Supreme Court made clear in its decision in MILLER-EL -v- COCKRELL, 537 U.S. 322, 123 S. Ct. 1029,
1039,154 L. Ed 2d. 931 (2003), a COA is " jurisdictionaf prerequisite ", and until a COA has been issued, the Federal
Courts of Appeals lacks jurisdiction to rule on the merits of appeal from Habeas Petitioner's. When considering
a request for a COA, the question is the debatability of the underlying Constitutional claim, not the resolution of
that debate. Id. at 1042.
While an appeal is a " continuation" of the litigation started in the trial court, it is a " distinct step ". See,
HOHN -v- UNITED STATES, 524 U.S. 236, 241, 141 L. Ed. 2d. 242, 118 S. Ct. (1969) And under AEDPA, an appellate
case is " commenced " when the application for a COA is filed. When Congress instructs that application of a
5.

statute is " triggered " by the commencement of a case, the relevant case for a statute directed to appeals is the
one in the appellate Court as Petitioner Sanders commenced when filing his application for a COA.
Petitioner Sanders rejects the Court of Appeals contentions, because Section 2253(c) provides that a COA
may issue upon the " substantial showing of the denial of a Constitutional right ”, and only " Constitutional rulings "
may be appealed, as in the case at hand. The COA statute established procedural rules and requires a " threshold
inquiry " into whether the circuit Court may entertain an appeal. HOHN, Supra, at 248, 141 L. Ed. 2d. 242, 118
S. Ct. (1969), cf. LINDH -v- MURPHY, 521 U.S. 320 (1997) also see LINDH Supra at 327, 138, L. Ed. 2d. 481.
Post-AEDPA law govern's " the right to appeal" in cases such as the one now presented to this Honorable
Court in Sanders
The Writ of Habeas Corpus plays a vital role in protecting Constitutional Rights to proceed to further
litigate and Constitutional issues presented to any Court of the United States, and not to impede them.
The BAREFOOT -v- ESTELLE case speaks loudly regarding the Petitioner claims presented. Under AEDPA,
a COA may not issue unless " the applicant has made a substantial showing of the denial of a Constitutional
Right. 28 U.S.C. Section 2253(c) (1994 Ed., Supp III) (28 U.S.C.S. Section 2253(c)).
" Except" for substituting the word " Constitutional" for the word " Federal", Section 2253 is a codification
of the CPC (certificate of probable cause) standard announced in BAREFOOT -v- ESTELLE, 463 U.S. at 894, 77
L. Ed. 2d. 1090, 103 S. Ct. 3383) Congress had before it the meaning BAREFOOT had given to the words it
selected; and we give the language found in Section 2253(c) the meaning ascribed it in BAREFOOT, with due note
for the substitution of the word " Constitutional
To obtain a COA under Section 2253(c), a Habeas prisoner must make a substantial showing of the denial of
a Constitutional Right a demonstration that, under BAREFOOT, includes showing that a reasonable jurists could
debate whether (of, for that matter, agree that) the Petition should have been resolved in a different manner or
that the issues presented were 1 adequate to deserve encouragement to proceed further" as in Petitioner Wallace's
Case. BAREFOOT, Supra, at 893, and n4, 77 L. Ed. 2d. 1090, 103 S. Ct. 3383. ("summing up the substantial showing
standard)
This construction gives meaning to Congress requirement that a prisoner demonstrate substantial underlying
constitutional claims and is in " conformity" with the meaning of the " substantial showing " standard provided in
BAREFOOT, Supra, at 893, and n4, 77 L. Ed. 2d. 1090, 103 S. Ct. 3383, and adopted by Congress in AEDPA.

6.

AEDPA's purpose is to further the principles of COMITY, FINALITY, AND FEDERALISM. (Quoting WILLIAMS
. -v- TAYLOR, 529 U.S. 420, 436, 146 L. Ed. 2d. 435, 120 S. Ct. 1479 (2000) The Petitioner states the Appellate Court
did not give full consideration to the " substantial evidence " Petitioner Sanders put forth in support of his
Constitutional claims under STRICKLAND, in stead, it accepted without question the District Court's evaluation. This
was too demanding a standard because it incorrectly merged the clear and convincing evidence standard of
Section 2254(e)(1).
The question for this Honorable Court is the " debatability ” of the underlying constitutional claim, not
the " resolution of that debate
The Petitioner states he has met the standards AEDPA imposes on the Court of Appeals and asks this
Honorable Court to conclude that the Court of Appeals abuse of the " writ" holding was wrong. Thus, this Court
should REVERSE AND REMAND....

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

JUSTIN LEE "SANDERS, “11954030

Date:

7.

